    ~~-..$tRvic~A
               ".""'. , .
   t.4-
                               DEPARTMENTOF
                              DEPARTMENT  OFHEALTH
                                             HEALTHAND      HUl'vlANSERVICES
                                                    A..l\lDHUl'vlAN  SERVICES


                            OFFICE OF
                            OFFICE OF INSPECTOR
                                       INSPECTOR GENERAL
                                                 GENERAL
        """•aa (:                              WASHINGTON ,DC
                                              WASHINGTON,   DC: 20201
                                                                 20201



                                               NOV 232 3 2012
                                              NOV         2012

 TO:
TO:                   MarilynTavenner
                     Marilyn   Tavenner
                      ActingAdministrator
                     Acting  Administrator
                      Centers forMedicare
                     Centers for Medicare&&Medicaid
                                           MedicaidServices
                                                    Services

                                    /S/ Andrea Buck for
 FROM:
FROM:                 StuartWright
                     Stuart  Wright                                      .; /~
                      Deputy  InspectorGeneral
                     Deputy Inspector   General                     ~.:::-~-----
                        for Evaluation and Inspections
                       for Evaluation and Inspections


  SUBJECT: Memorandum
 SUBJECT:   MemorandumReport:
                          Report: Assessment
                                   AssessmentofofHospital
                                                  HospitalReporting
                                                           ReportingofofPresent
                                                                         PresentononAdmission
                                                                                     Admission
            Indicators on Medicare  Claims,  OEI-06-09-0031
           Indicators on Medicare Claims, OEI-06-09-0031 0   0


 Thismemorandum
This   memorandumreport
                      reportprovides
                               providesinformation
                                           informationrequested
                                                          requestedby    officialsofofthe
                                                                      byofficials      theCenters
                                                                                           Centersfor
                                                                                                    forMedicare
                                                                                                        Medicare&&
 Medicaid    Services (CMS)     about  hospital   reporting   of  Present  on Admission    (POA)
Medicaid Services (CMS) about hospital reporting of Present on Admission (POA) indicators. The     indicators. The
 Office  of Inspector  General    (OIG)   analyzed    the POA    indicators  for Medicare   Inpatient
Office of Inspector General (OIG) analyzed the POA indicators for Medicare Inpatient Prospective       Prospective
 System(IPPS)
System    (IPPS)claims
                  claimscollected         partofofaanational,
                          collectedasaspart          national,random
                                                                randomsample
                                                                          sampleofofpatients
                                                                                      patientsdischarged
                                                                                               dischargedinin
 October2008.
October    2008. The
                  Theindicators
                       indicatorswerewerecollected
                                            collectedininthe   courseofofdeveloping
                                                           thecourse      developing~IG's
                                                                                        OIG'sNovember
                                                                                               November20102010
 report, Adverse   Events  in  Hospitals:    National   Incidence   among    Medicare
report, Adverse Events in Hospitals: National Incidence among Medicare Beneficiaries,    Beneficiaries,
 OEI-06-09-00090. Little
OEI-06-09-00090.       Littleisisknown
                                  knownabout
                                           aboutthetheaccuracy
                                                       accuracyofofPOA      indicators,which
                                                                    POA indicators,      whichwill
                                                                                                will
 be important   for Medicare's     efforts to align  payment    incentives   with patient
be important for Medicare's efforts to align payment incentives with patient outcomes.     outcomes.

 SUMMARY
SUMMARY

 OIG'sNovember
OIG's   November2010  2010report
                            reportfound
                                    foundthat
                                           thatananestimated
                                                    estimated13.5   percentofofMedicare
                                                               13.5percent        Medicarebeneficiaries
                                                                                             beneficiaries
 hospitalizedininOctober
hospitalized       October2008
                             2008experienced
                                   experiencedadverse
                                                  adverseevents,
                                                           events,defined
                                                                   definedasasserious
                                                                                 seriousharm
                                                                                         harmfrom
                                                                                                frommedical
                                                                                                     medicalcare
                                                                                                              care
 resulting in  prolonged   hospitalization,  permanent    disability,  life-sustaining intervention,  or
resulting in prolonged hospitalization, permanent disability, life-sustaining intervention, or death. An death.  An
 additional   13.5 percent  of hospitalized   beneficiaries  experienced     temporary  harm   events,
additional 13.5 percent of hospitalized beneficiaries experienced temporary harm events, defined as    defined  as
 requiringintervention
requiring   interventionbutbutnot
                               notresulting
                                    resultingininlasting
                                                  lastingharm.
                                                          harm. To
                                                                 Todetermine
                                                                      determinethese
                                                                                  theserates,
                                                                                        rates,we
                                                                                               weexamined
                                                                                                   examined
 medicalrecords
medical   recordsforforaanational,
                          national,random
                                     randomsample
                                               sampleofof780
                                                          780hospitalized
                                                               hospitalizedMedicare
                                                                               Medicarebeneficiaries
                                                                                         beneficiariesdischarged
                                                                                                        discharged
in October 2008. This memorandum supplements our prior work by providing national estimates ofof
 in October   2008.   This memorandum       supplements    our prior   work   by providing  national estimates
 theextent
the  extenttotowhich
                whichhospital
                        hospitalcoding
                                  codingstaff
                                          staffmisreported
                                                 misreportedPOA
                                                              POAindicators
                                                                    indicatorson onIPPS
                                                                                     IPPSclaims.
                                                                                           claims.

 Wereviewed
We    reviewed5,491
                 5,491POA
                        POAindicators
                              indicatorsfrom
                                          from698698sample
                                                      sampleclaims.
                                                               claims. Hospital
                                                                         Hospitalcoders
                                                                                     codersincorrectly
                                                                                            incorrectlyreported
                                                                                                         reported
 3 percent  of  the 5,491  POA   indicators  reviewed,   resulting   in at least one   incorrect
3 percent of the 5,491 POA indicators reviewed, resulting in at least one incorrect indicator on indicator oneach
                                                                                                              each
 of  129 claims   (18 percent).   By  dividing  the  POA  indicator   errors  into  three groups
of 129 claims (18 percent). By dividing the POA indicator errors into three groups based on noted based  on noted
 similarities,we
similarities,   wedetermined
                    determinedthat
                                 that21
                                      21percent
                                         percentrelated
                                                   relatedtotothe
                                                               theassessment
                                                                   assessmentofofdeveloping
                                                                                     developingororchronic
                                                                                                     chronic
 conditions,32
conditions,    32percent
                   percentinvolved
                           involvederrors
                                      errorsininassigning
                                                 assigningPOAPOAindicators
                                                                   indicatorstotoexempted
                                                                                   exemptedconditions,
                                                                                              conditions,and
                                                                                                           and
47 percent involved other reporting errors not associated with developing or chronic conditions oror
 4 7 percent  involved  other  reporting  errors  not  associated   with developing     or chronic conditions
Page 2 – Marilyn Tavenner


with exemptions. The 3-percent national POA indicator error rate is relatively low, particularly
given that our review assessed claims submitted early in the implementation of the POA reporting
requirement. However, POA indicators provide an opportunity for monitoring hospital quality of
care and are critical to CMS’s efforts to link payment to quality; they must be accurate to serve
these purposes. Encouraging hospitals to assess POA reporting practices related to developing
conditions and exemption codes, and to retrain staff as needed, could help to ensure accuracy.

BACKGROUND

POA Indicators
Pursuant to Section 5001(c) of the Deficit Reduction Act of 2006 (DRA), hospitals may not receive
increased Medicare reimbursement for certain conditions when they develop during the hospital stay
and are not present at the time of admission (referred to as “hospital-acquired conditions”). A list of
non-reimbursable hospital-acquired conditions is updated annually and includes conditions that CMS
determines to be reasonably preventable. 1 To distinguish between conditions that are present at the
time of admission and those that develop during hospitalization, CMS requires hospitals to report
POA indicators for every diagnosis code (i.e., International Classification of Disease, Ninth Revision,
Clinical Modification (ICD-9-CM)) submitted on claims reimbursed through the Medicare IPPS
beginning in October 2007. 2 Hospitals must include a POA indicator for all diagnosis codes. Certain
diagnoses are exempted from POA reporting: conditions that do not represent a current disease or
injury (such as a prior diagnosis of cancer) or are always present at the admission of a particular
person (such as a congenital disorder).

In addition to providing a necessary framework for the DRA-mandated payment policy, POA
indicators provide information for monitoring quality of care. A number of provisions in the
Patient Protection and Affordable Care Act of 2010 (ACA) address quality measurement and will
rely, in part, on accurate reporting of POA indicators. 3 Further, hospitals can use information about
the types and frequency of conditions that develop during hospital stays to monitor trends or to
narrow case reviews to those most likely to reveal poor care.

CMS requires hospital coders to assign one of five POA indicators to each patient diagnosis on
Medicare inpatient claims (see Table 1). Accurately determining whether conditions are present on
admission requires a high level of precision in patient assessment and medical documentation. 4 To
correctly implement the POA policy, hospitals must train clinicians, such as nurses and physicians,
to clearly document preexisting conditions in records and train coders to accurately assign POA
indicators. 5


1
  CMS payment policy regarding hospital-acquired conditions became effective October 1, 2008. DRA,
P.L. 109-362, § 5001(c), Social Security Act, § 1886(d)(4)(D), 42 U.S.C. § 1395ww(d)(4)(D); 73 Fed. Reg. 48434,
48471–48491 (Aug. 19, 2008).
2
  CMS, “Present on Admission Indicator,” Medicare Claims Processing, Transmittal 1240 (Change Request 5499,
May 11, 2007). Accessed at https://www.cms.gov/transmittals/downloads/r1240cp.pdf on January 3, 2012.
3
  ACA, P.L. 111-146, §§ 3001 and 3008.
4
  C. Zahn, et al., “Modifying DRG-PPS to Include Only Diagnoses Present on Admission: Financial Implications
and Challenge,” Medical Care, 45 (4), 2007.
5
  L.A. Wiedemann, “Preparing for POA Reporting: How One Facility Educated Its Staff on the Importance of the
New Requirement,” Journal of American Health Information Management Association, 78 (7), 2007.
Page 3 – Marilyn Tavenner


             Table 1: POA Indicators
             Indicator                                                                                  Description
             Y                                                   Condition was present at time of inpatient admission
             N                                               Condition was not present at time of inpatient admission
                               Documentation insufficient to determine whether condition was present at the time of
             U
                                                                                               inpatient admission
                             Provider unable to clinically determine whether the condition was present at the time of
             W
                                                                                                 inpatient admission
             1                                                               Diagnosis is exempt from POA reporting
            Source: CMS Fact Sheet, POA Reporting by IPPS Hospitals, October 2008.



OIG Study of Adverse Events in Hospitals
Beginning in 2008, OIG released a series of reports regarding adverse events in hospitals. For
the report Adverse Events in Hospitals: National Incidence Among Medicare Beneficiaries, we
conducted nurse and physician reviews of medical records for a nationally representative sample
of 780 Medicare beneficiaries hospitalized in October 2008. We found that an estimated
13.5 percent of hospitalized Medicare beneficiaries experienced adverse events. An additional
13.5 percent experienced temporary harm events. 6

METHODOLOGY

For this report, OIG contracted with certified coders to review the claims and associated medical
records for the same sample of beneficiaries examined in the adverse events study. For the 780
beneficiaries selected for the adverse events study, OIG reviewed 698 claims submitted under the
Medicare IPPS. 7 Each claim included between 1 and 9 diagnoses for a combined total 5,491 POA
indicators (all of which were reviewed). 8 We made appropriate statistical adjustments and
projected the error rates to the population of claims submitted to the Medicare IPPS in October
2008. We did not attempt to assess the effect of inaccurate POA indicators on claim costs.

The coders analyzed POA indicators for all valid diagnosis codes within the sample using a
standardized protocol to review the medical records and the associated Medicare claims. We based
review standards on the guidelines in place in October 2008. The coders utilized all available
information to determine whether conditions were present on admission, and consulted with the
project director (a coder and medical review expert) and contracted physicians in making
determinations. The coders documented all miscoded POA indicators and described circumstances
in individual cases that may have contributed to the errors. In some cases, misreported POA
indicators may not be a reflection that the hospital coders did not follow coding criteria, but rather
that documentation in the medical record was not sufficient for the coders to accurately reflect the
beneficiary’s condition upon admission.

6
  OIG, Adverse Events in Hospitals: National Incidence Among Medicare Beneficiaries, OEI-06-09-00090,
November 2010.
7
  We excluded from review 82 of the 780 claims. We excluded 72 claims because they were not covered under the
Medicare IPPS. We also excluded 10 claims that we suspected did not accurately reflect hospital coding of POA
indicators. Each of these 10 claims had all POA indicators coded as “exempt,” but staff at the hospitals submitting
these claims stated during telephone calls that the hospitals did not submit these claims with all POA indicators
coded as exempt.
8
  We excluded from review 47 of 5,538 submitted indicators because the associated diagnosis codes were invalid.
Page 4 – Marilyn Tavenner


This study was conducted in accordance with the Quality Standards for Inspection and
Evaluation approved by the Council of the Inspectors General on Integrity and Efficiency.

RESULTS

Hospital Coding Staff Incorrectly Reported 3 Percent of POA Indicators, With Errors
Distributed Across 18 Percent of Sample Medicare Claims 9
Among Medicare inpatient claims for the review month, 18 percent (129 sample claims) included
at least one inaccurate POA indicator. Of the 5,491 POA indicators reviewed, we identified
180 reporting errors (3 percent). About half of the POA reporting errors had one of two distinctive
traits: developing or chronic conditions (21 percent) or incorrect use of exemption codes
(32 percent). The remaining errors (47 percent) did not appear to be associated with any particular
codes or conditions, but demonstrate other errors in reviewing medical record documentation.
Table 2 provides the estimated percentages and 95-percent confidence intervals for the three error
groups.

             Table 2: POA Indicator Reporting Errors (n=180)
                                                                         95-Percent Confidence Interval
             Error Group                                    Percentage
                                                                                Lower             Upper
             Developing or Chronic Condition                    21.1%           14.8%             28.6%
             Exemption Code                                     31.7%           23.0%             40.3%
             Other Coding Errors                                47.2%           39.3%             55.1%
            Source: OIG analysis of 5,491 POA indicators.



Twenty-One Percent of POA Reporting Errors Involved Patients’ Developing or Chronic
Conditions
Thirty-eight of 180 inaccurate POA indicators in our sample may have resulted from uncertainty
regarding how to assign POA indicators for health conditions that were developing at the time of
admission and for certain cases of chronic health conditions. Thirty-two cases involved conditions
that were developing at the time of admission, when hospital coders used differing criteria for
assigning POA indicators, such as which symptoms patients exhibited at admission, when
diagnostic tests were performed, and when physicians documented the diagnosis. The diagnoses
associated with these misreported POA indicators included systemic inflammatory response
syndrome, septic shock, blood infections, urinary tract infections, pneumonia, pressure ulcers,
constipation, and malnutrition—all conditions that may develop over a period of time. For the
remaining six cases in this group, hospital coders made POA errors for patients receiving an initial
diagnosis of a chronic illness, such as diabetes, and for patients experiencing an exacerbation of a
chronic condition, such as congestive heart failure.

Thirty-Two Percent of the POA Indicator Errors Involved Exemption Codes
Fifty-seven of the 180 inaccurate POA indicators in our sample resulted from misapplication of the
CMS exemption provision. In 49 of these cases, the hospital coder assigned a POA indicator code
(“Y,” “N,” “U,” or “W”), when he or she should have identified the diagnosis as exempt (“1”).

9
 The 95-percent confidence interval is 2.86–3.94 percent for miscoded POA indicators. For claims with at least one
POA coding error, the 95-percent confidence interval is 15.78–21.73 percent.
Page 5 – Marilyn Tavenner


Exempt diagnoses are not easily categorized by POA indicators, as they typically provide
contextual information, such as how an injury occurred, or relate to a past diagnosis, such as a
history of cancer. Exempt diagnoses should be assigned a “1” POA indicator; yet, in several of
these cases, the hospital coder listed a POA indicator of “U” (documentation insufficient). For the
remaining eight miscoding errors involving exemption codes, the hospital coders coded the
diagnoses as exempt when they were not on the published list of exemptions and should have been
assigned POA indicators.

Forty-Seven Percent of Inaccurately Reported POA Indicators Were Not Associated With
Specific Codes or Conditions and Demonstrated Other Errors Associated With Medical
Record Documentation
For 85 of the 180 misreported POA indicators in our sample, the OIG coders found documentation
in the medical record that contradicted the POA designation. The medical records for 50 of these
cases clearly indicated the presence or absence of the diagnosis at the time of admission. This
suggests that hospital coders may have failed to notice or disregarded information necessary to
make an accurate POA assessment. For another 22 of the errors in this group, the OIG coders
found the relevant information in laboratory results or other time-specific information that marked
the presence or absence of the condition at the time of admission. However, the physicians who
diagnosed the patients did not indicate clearly when the conditions developed, and per the coding
standards, the hospital coders may have been unable to determine the correct POA indicator
independently. The remaining 13 miscoded POA indicators included a range of other issues, such
as a diagnosis that changed during the hospital stay.

CONCLUSION

We found that hospital coders inaccurately reported 3 percent of the POA indicators reviewed,
resulting in the presence of at least one inaccurate indicator on 18 percent of claims. The
3-percent error rate is relatively low, particularly given that our review assessed POA indicators
early in implementation of the POA reporting requirement. POA indicators provide an
opportunity for monitoring hospital quality of care and are critical to CMS’s efforts to link
payment to quality, but they must be accurate to serve these purposes. Encouraging hospitals to
assess POA reporting practices related to developing conditions and exemption codes, and to
retrain staff as needed, could help to ensure accuracy.

This report is being issued directly in final form because it contains no recommendations. If you
have comments or questions about this report, please provide them within 60 days. Please refer
to report number OEI-06-09-00310 in all correspondence.
